6825

No.

SuPrem

*«rus'

IN THE

>82020
SUPREME COURT OF THE UNITED STATES

ANDREW S. ANDERSEN

— PETITIONER

(Your Name)
vs.
MARSELA MONTES. ET AL.■

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

NINTH CIRCUIT COURT OF APPEALS

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

ANDREW ANDIBSIIL.

(Your Name)
Valley State Prison
P.O. BOX 96

(Address)
Chowchilla

nn o-isin

(City, State, Zip Code)

(Phone Number)

RECEIVED
DEC - 4 2020
OFFICE OF THE CLERK
SUPREME COURT li.S.

QUESTION(S) PRESENTED
|. Did this court's ruling in swarthout v. cooke and Greenholtz v. inmates of
Nebraska foreclose First Amendment challenges agasint statements of reasons
that contain a reason for denying the benefit of parole when a reason for
denial is based on the exercise of protected First Amendment freedoms and
there was an opportunity to be heard?
2. Did this Court's ruling in swarthout and Greenholtz foreclose facial challenges
of the California parole suitability determination regulatory scheme under the
First Amendment?
3. Did prisoners lose their First Amendment right to challenge parole denial
decisions that are based on the exercise of protected First Amendment freedoms?
4. Did prisoners lose their First Amendment right to challenge parole suitability
determination schemes on thier face under the First Amendment
5. Are prisoners allowed to challenge parole suitability determination schemes
using the Turner v. Safley test under the First Amendment?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Marsela Montes
Tamiza Hockenhull
Jennifer Shaffer

RELATED CASES

i

iii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

8

INDEX TO APPENDICES

APPENDIX A DE2SSI0N ON PETITION FOR REHEARING BY THE COURT OF APPEALS
DENYING REHEARING

APPENDIX B

decision

APPENDIX C

DECISION OF TRIAL COURT DENYING RECONSIDERATION

APPENDIX D

of

court of appeals

decision of the trial court

APPENDIX E FINDINGS AND RECOMMENDATIONS OF THE .

APPENDIX F

iv

TRIAL COURT MAGISTRATE

TABLE OF CASES CITED
CASES
Beard v. Banks
548 U.S. 472

6

Crawford-El v. Britton
523 U.S. 574

6
!

Greennoltz v. inmates of Nebraska Penal and corr. Complex
442 U.S. 1 (1979)
4,7
Houston v. Hill
492 U.S. 451 (1987)

8

\
\
\\
\
\
\

O'Lone v. Estate of shabazz
482 U.S. 342 (1987)
6
Perry v. sindermann
408 U.S. 592 (1972)
7
Rutan v. Republican Party of ill.
497 U.S. 62 (1990)
7
Sandin v. Conner
515 U.S. 472 (1995)
6
Swarthout v. Cooke
562 U.S. 216 (2011)
4,6,7
Turner v. safley
482 U.S. 78 (1987)

I
!

6

United States v. Stevens
559 U.S. 460 (2010)

8

Virgina v. Hicks
539 U.S. 113 (2003)

8
i

STATUTES AND RULES
28 U.S.C. § 1915A
4
42 U.S.C. § 1983
ii
California Code of Regulations, Title 15 § 2255
California Code of Regulations, Title 15 § 2281

v

4
4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[39 is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

0

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ^ is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
court
appears at Appendix
to the petition and is
[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[ x| For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was May 14> 2020
[ ] No petition for rehearing was timely filed in my case.
[ xl A timely petition for rehearing was denied by the United States Court of
2020
Appeals on the following date: AUguat 20,_________
and a copy of the
order denying rehearing appears at Appendix a
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
------------------------------and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
This case involes Amendment
Congress shall

I of the United States Constitution:

make no law

• • i

abridging freedom of speech • • •

The Amendment is enforced by Title 42, Section 1983, United States code:
Every person who, under the color of any statute, ordinance, regulation,
custom or usage, of any state or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of the united States
or other person within the jurisdication thereof to the deprivation
of sny rights, privileges, or immunites secured by the constitution
and laws, shall be liable to the party injured in an action at law,
suit in equity, or other proper proceeding for redress, except that
in any action brought against a judicial officer for an act or omission
taken in such officer's judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated or declaratory
relief was unavailable. For the purposes of this section, any Act of
Congress applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia.
The regulations at issue are California code of Regulations, Title 15, Division
2, Sections 2281 and 2255 the full text is located in Appendix E, pp. 4-6.

S

3

STATEMENT OF THE CASE
The petitioner's

complaint alleged

an as-applied and facial challenge of

California Code of Regulations, Title 15, §§ 2255 and 2281 under the First
Amendment. The as-applied challenge was dismissed at the 28 U.S.C. § 1915A
stage without leave to amend on the ground that this court's ruling in Swarthout
v. Cooke, 562 U.S. 216 citing Greenholtz v. inmates of Nebraska penal and corr.
Complex, 442 U.S. 1 (1979) foreclosed any constitutional challenge of a reason
for denial of parole in a statement of reasons so long as there is was an
opportunity to be heard and a statement of reasons issued. The lower court
citing this Court stating: "The constitution ... does not require more." (id. at
p. 220.)
!'
petitioner
also asserted a facial challenge under the First Amendment

claiming that the regulatory scheme [of the California Board of parole Hearings
("BPH") for determining whether to grant life prisoners release on parole
violates the First Amendment. Petitioner argued that the BPH delegates overly
board discretion to government officials in making content-of-speech (based
decisions, petitioner also alleged that the BPH lacks sufficient procedures
and safeguards to timely challenge a content-based decision for being overbroad,
vague, capricious, arbitrary, biased or any other type of First Amendment
challenge.
The facial challenge was screened out at the 28 U.S.C. § 1915A stage without
being allowed to develop the record for the following reasons: 1) "the Supreme
Court has 'maintained that the constitutional rights that prisoners possess
are more limted in scope than the constitutional rights held by individuals in
society at large I II (Appendix D, p. 2); 2) the regulations at issue are not
overly broad, as they set forth standards and objective factors that the BPH
is to consider when determining whether an inmate is suitable for release on
parole; and 3) 28 U.S.C. § 2254 is available to file habeas corpus petitions.
4

The court of appeals upheld both the as-applied and facial challange dismissals.
This case hinges on whether this court by ruling that "[t]he Constitution
does not require more" forecloses as-applied challenges against parole decisions
that deny the benefit of parole because the life prisoner exercised his First
Amendment freedoms and thus penalizing that right and whether prisoners can
challenge parole regulations under the First Amendment as overbroad and vague.
per the lower courts, when as-applied challenges are foreclosed for First Amendment \
challenges then it is futile to challenge the regulatory scheme facially under
the First Amendment.

5

REASONS FOR GRANTING THE WRIT
A. Conflicts with Decisions of this court
The holding of the courts below that a facial challenge of California's
parole suitability determination scheme (hereafter called "the scheme") is not
cognizable under the First Amendment conflicts with holdings of this Court. In
Sandin v. Conner, 515 U.S. 472, 481 n.11 (1995) this Court held that even when
a prisoner cannot bring a challenge under due process, one can be brought under
the First Amendment. This Court also created Turner v. Safley, 482 U.S. 78 (1987)
for prisoners to bring First Amendment challenges against prison regulations and
allow prisoners to "marshal substantial evidence" to prove their case in Beard
v. Banks, 548 U.S. 521, 535 (2006). This Court has allowed challenges under
the First Amendment for situations where a privilege was denied because a
prisoner exercised a protected first Amendment right in Crawford-EL v. Britton,
523 U.S. 574, 588
conditions) >

fn 10 (discussing retaliation as akin to "unconstitutional

This court has held that "Inmates clearly retain protections

afforded by the First Amendment."fo'Lone v. Estate of Shabazz, 482 U.S. 342,
348 (1987).)
B. Importance of the Questions Presented
This case presents fundamental questions j of the interpretation of Greenholtz
and swarthout as it applies to the denial of the benefit of parole because a
prisoner exercised a protected First Amendment right. The questions presented
are of great public importance because

if

the lower courts1 ruling is

correct, prisoners in every state would be foreclosed from challenging a parole
denial decision under the "unconstitutional conditions doctrine" where the
benefit of parole was conditioned on waiving protected First Amendment freedoms.
or the benefit was denied because of the exercise of First Amendment freedoms.
such as giving up the right to file grievances and law suits or because of the
filing of grievances or lawsuits. Based on the lower courts' ruling, such

6

conditions and penalities cannot be reviewed by a federal court if the prisoner
received all the process his was due-because this court took that right away in
Swarthout and Greenholtz.
The lower courts are misinterpreting Swarthout and Greenholtz. Swarthout was
based on Greenholtz and the issue before Greenholtz was how much process was due
for receiving parole when there is no federal right to parole but a state-created
liberty interest. In the instant case the issue is the loss of a protected federal
right to freedom of expression to earn parole. This Court has held that:
even though a person has no 'right' to a valuable governmental benefit
and even though the government may deny him the benefit for any number
of reasons, there are some reasons upon which the government may not
rely. It may not deny a benefit to a person on a basis that infringes
his constitutionally protected interests — especially his interest
in freedom of speech. Rutan v. Republican party of Ill., 497 U.S. 62,
72 (1990).
Whea this Court held that "a prisoner subject to a parole statute ... receive[s]
adequate process when he [i]s allowed an opportunity to be heard and [i]s provided
a statement of reasons why parole was denied. The Constitution ... does not require
more" (swarthout, supra, at p. 220 (internal quotation marks and citations omitted)),
this court was not foreclosing a First Amendment challenge against a reason for
denial of parole when that reason infringes on protected First Amendment freedoms.
This court has held that "if the government could deny a benefit to a person
because of &&£.:constitutionally (protected speech . • • $ his expression of those
freedoms would in effect be penalized and inhibited."^Perry v. Sindermann, 408
U.S. 592, 597 (1972).)

When a parole board makes such a denial of parole, per

the lower courts prisoners have no remedy at law and must inhibit that speech before and
at a future board hearing to earn release. This court made no such restriction.
It is not conceivable that this Court would make such a wide sweeping ruling
beyond the issues and questions before it.
These questions are also important because the lower courts' holding prevents
Turner v. Safley challenges against parole regulations or parole suitability
7

determination regulatory schemes by prisoners, Prisoners should be allowed to
challenge such regulatory schemes facially under the First Amendment and have
an opportunity to develop a record to demonstrate that the scheme is overboard
pursuant to virgina v. Hicks, 539 U.S. 113, 122 (2003); United States v. Stevens,
559 U.S. 460, 472 (2010); and Houston v. Hill, 482 U.S. 451, 458 (1987).

Thus the court below seriously misinterpreted swarthout and Greenholtz by
holding that those cases foreclosed as-applied and facial challenges under the
First Amendment of parole decisions and parole regulatory schemes Where the
right at issue are First Amendment rights. The court should correct that misinter­
pretation and make it clear that its holding in Swarthout and Greenholtz did not
foreclose such challenges.
CONCLUSION
For the foregoing reasons, certiorari should be granted in this case.
Respectfully^3ubmitted,

November 24, 203,0

Andrew Andersen
F39343
Valley State prison
P.0. Box 96
Chowchilla, CA 93610

8

APPENDIX A

